Office of
Inspector General

               Protection of Credit Card Numbers

                                             05-01




                                 April 21, 2005
Farm Credit Administration                              Office of Inspector General
                                                        1501 Farm Credit Drive
                                                        McLean, VA 22102-5090
                                                        (703) 883-4030




   June 2, 2005



   The Honorable Nancy C. Pellet
   Chairman of the Board and
      Chief Executive Officer
   Farm Credit Administration
   1501 Farm Credit Drive
   McLean, Virginia 22102

   Dear Ms. Pellett:

   The Office of the Inspector General has completed an inspection of Agency credit card security
   controls. The objective of this inspection was to evaluate the controls over sensitive credit card
   information generated by Bank of America for the Farm Credit Administration.

   We interviewed FCA staff responsible for travel and purchase cards and account reconciliations.
   We reviewed internal procedures for credit card programs and previous work performed by the
   OIG. The inspection followed the President’s Council on Integrity and Efficiency/Executive
   Council on Integrity and Efficiency Quality Standards for Inspections.

   We found that Bank of America was unresponsive to previous account maintenance requests by
   the Agency’s Official Point of Contact. Actions taken by FCA will improve present data security
   conditions.

   I would be pleased to meet with you and discuss the report at your convenience.

   Respectfully,



   Stephen G. Smith
   Inspector General

   Enclosure
 BACKGROUND

The Farm Credit Administration (FCA or Agency) is an independent Federal bank regulatory
agency that employs approximately 280 employees. Almost all employees have government
travel credit cards. Additionally, 39 employees have credit cards for agency purchases.

FCA uses the services of Bank of America (BOA) for travel cards, purchase cards, fleet cards,
and convenience checks. FCA’s arrangement for these credit card services is under a tag
along interagency agreement with the Department of Interior’s (DOI) contract with BOA through
the U.S. General Services Administration (GSA). FCA’s original arrangement with DOI/BOA
was for 6 years. In November 2004, FCA continued BOA services for another year, again under
DOI’s contract. This arrangement ends in November 2005.

The Office of Chief Financial Officer (OCFO) is responsible for travel card management for the
agency, including issuing travel cards, closing those accounts, and reviewing travel account
activity. Further, OCFO performs the reconciliations of billing statements from the Bank of
America for purchase card accounts with FCA’s financial management system. Within OCFO,
the Financial Operations Specialist is responsible for all travel card duties and responsibilities
and the Designated Billing Officer (DBO) is responsible for reconciling the agency’s purchase
card accounts.

The Office of Chief Administrative Officer (OCAO) is responsible for purchase card
management for the agency, including: issuing purchase cards, fleet cards and convenience
checks, closing purchase accounts, and reviewing purchase account activity. The Agency’s
Official Point of Contact (AOPC) is responsible for the maintenance of all purchase and fleet
credit card accounts.

BOA provides an online system called EAGLS for account management. Designated officials
from agencies can obtain up-to-date account information, manage administrative issues
concerning accounts and run reports on account holders, merchants, or offices for internal
controls or analysis.


 SCOPE AND OBJECTIVE

The objective of this inspection was to evaluate the controls over sensitive credit card
information generated by Bank of America for FCA.            The inspection was limited to
communications between FCA and Bank of America, we also spoke with staff from the Farm
Credit System Insurance Corporation (FCSIC) since FCSIC had erroneously received FCA
credit card information. Specifically, we evaluated the controls for safeguarding agency and
employee credit card information.

Fieldwork began in December 2004 after an entrance conference was held on December 2nd.
We performed the following: interviewed FCA staff responsible for travel cards, purchase cards
and account reconciliations; reviewed internal procedures for credit card programs; reviewed
previous work performed by the OIG; interviewed BOA staff; reviewed BOA documentation sent
to FCA and the documentation available on-line through EAGLS. The inspection was
completed in accordance with the PCIE/ECIE Quality Standards for Inspections.




Farm Credit Administration  Office of Inspector General                                         1
 FINDINGS AND RECOMMENDATIONS

BOA Is Unresponsive to Agency Service Requests
BOA’s poor customer service has hindered FCA’s ability to properly manage credit card
accounts. Our review found that the difficulty in getting BOA to fulfill customer service requests
has led to improper mailings of sensitive information and incorrect account information.

BOA Sent Sensitive Credit Card Information to Unauthorized Parties
On multiple occasions, the Farm Credit System Insurance Corporation (FCSIC) received mail
from BOA that included raw data reports containing detailed credit card information for FCA
employees. On one occasion, FCSIC received similar detailed raw data for the Commodity
Futures Trading Commission (CFTC). BOA sent these reports to the attention of FCA’s former
AOPC who left the agency in August 2000.

The raw data reports encompass all agency credit card accounts (both open and closed). The
reports included name, address (home address and social security numbers for travel cards),
account number, and credit limit. According to BOA, a BOA contractor generates and mails the
reports through a computerized system. Because there is no manual oversight, BOA cannot
detect mailing errors. BOA indicated that FCSIC was in BOA’s records as being under FCA’s
hierarchy. BOA also had the former FCA employee (who separated from FCA in 2000) as the
point of contact for both FCA and FCSIC. BOA explained that since both entities had the same
point of contact and the same address, both agencies’ reports were put in the same envelope.
While this explanation appears reasonable, we found the raw data reports are not consistently
mailed together. It also does not explain why FCSIC received the CFTC report.

The raw data reports are difficult to read and extract useful information. This same information
in a more useful format can be self-generated through the online system or obtained from the
billing statements received by FCA. After discussing our observation with FCA managers and
responsible staff, FCA directed BOA to stop sending the raw data reports.

Poor Customer Service Makes Account Management Difficult
FCA must continually work with BOA personnel to maintain the accuracy of agency account
information. FCA’s AOPC and FCSIC personnel stated that obtaining assistance from BOA is
time consuming and follow up is required because there is a lack of confidence that changes will
be made by BOA. We were informed of repeated instances where BOA was not responsive to
agency requests for assistance. FCA and FSCIS staff gave the following examples:

    •   As noted earlier, BOA had FCA’s and FCSIC’s official agency point of contact as an
        employee who left FCA almost 5 years ago, although personnel from both agencies
        stated that they had repeatedly requested that BOA change the point of contact. BOA
        finally changed the point of contact on February 10, 2005 after the OIG and the AOPC
        contacted BOA directly. However, BOA put the former point of contact as the backup for
        FCA, although BOA was informed that he was no longer with the Agency.
    •   FCSIC severed all financial services with FCA in January 2002, and all services with
        BOA in September 2004. However, according to current BOA records, FCSIC is still
        under FCA’s hierarchy.



Farm Credit Administration  Office of Inspector General                                         2
    •   The AOPC informed the OIG that he experiences poor customer service from BOA in
        responding to requests for changes, updates or assistance with EAGLS applications and
        account maintenance. He noted requests to BOA are frequently time consuming and
        cumbersome. Specific examples included:
            BOA’s ordering process for convenience checks is flawed and requires personal
             follow-up by FCA because the ordering forms are inaccurate. FCA has spent a large
             amount of staff resources over an extended period attempting to remedy the problem
             with BOA.
            BOA provided inaccurate directions for resolving problems encountered with EAGLS
             and requests for changes.
            The EAGLS system does not always retain changes made by FCA employees
             online. A recent incident showed that although FCA “submitted” a hierarchy change,
             the information reverted back to the original data.

Similarly, the OIG documented several instances where BOA was not responsive:
            Accounts that were closed by FCA personnel through EAGLS as long as six years
             ago, still appear in the EAGLS database and have not been purged. The BOA
             representative assigned to FCA stated that closed accounts are purged after being
             closed for 3 years.
            BOA did not have a backup representative at the beginning of the fieldwork. The
             BOA representative for FCA was out of the office for an extended period of time and
             some areas of fieldwork were delayed until she returned. At the end of the fieldwork,
             the BOA representative offered another BOA employee to assist the OIG, but when
             an attempt was made to contact that employee, he was out of the office for an
             extended period.

BOA’s unresponsiveness results in inefficiencies, inaccuracies, and contributed to the improper
mailing of sensitive account information.

Agreed Upon Action

1. FCA will review available options for credit card services and, to the greatest extent
   possible, require performance metrics in any new agreement with a credit card provider.

FCA Can Take Actions to Mitigate Risks of Sensitive Information Being Exposed
Account Information Should Be Kept Current
FCA should ensure that account information for all credit cards are kept up-to-date and that
closed accounts that contain personal information are purged as soon as practical. The EAGLS
system contains outdated, erroneous, or missing information about cardholders’ offices or
divisions. With the recent changes to EAGLS, FCA can correct much of this information online.
The AOPC stated that he has nearly completed the updating of the hierarchy designations for
purchase accounts since he is now able to do this online.

We found a large number of closed accounts in the EAGLS online database, some that were
closed as long as 6 years ago. There were 210 closed FCA travel accounts and 26 closed
purchase accounts in the EAGLS system. The closed travel accounts have former employees’
personal addresses and social security numbers. We also found six FCSIC employees are



Farm Credit Administration  Office of Inspector General                                         3
listed under the FCA hierarchy with open travel card accounts. These accounts should not be
under FCA, and should have been closed since FCSIC stopped using BOA services this past
fall. During the inspection fieldwork, the Financial Operations Specialist closed these accounts.
Allowing an individual’s personal information to be maintained in an online database when the
accounts are no longer needed creates an unnecessary risk to former cardholders’ personal
information. All closed accounts should have the cardholder’s personal information immediately
removed from the EAGLS online system and the account purged after a reasonable period of
time.

Agreed Upon Actions
2. Management will establish an ongoing process that ensures:
     a. Cardholder account information is routinely and accurately updated, and
     b. Personal information is immediately removed from closed accounts and they are
        purged from the EAGLS online database after a reasonable period of time.

Alternative Processes for Distribution of Sensitive Information Should Be Considered
OCAO and OCFO both maintain hardcopies of individual account information related to their
office’s responsibilities. Both offices ensure that the hardcopies are secured in locked cabinets
or shredded. However, OCFO provides copies of individual travel billing statements to
approving officials for review. Distribution of these billing statements poses a risk since they are
sent through inner office mail in unsealed envelopes.

Security could be improved by providing the information to approving officials in electronic
format; however, EAGLS does not provide these statements online for electronic distribution.
FCA could create reports for approving officials by using BOA software to download the
information. This would also reduce FCA’s costs since FCA pays a fee for the hardcopies of the
travel billing statements.

Another alternative would be for FCA to consider the availability of online billing statements
when considering other companies for credit card services as recommended earlier in this
report.

Agreed Upon Action

3. FCA will improve control over sensitive information by using secure methods for
   disseminating any sensitive information.




Farm Credit Administration  Office of Inspector General                                           4
